SCOTUS CASE NO.
IN THE
SUPREME COURT OF THE UNITED STATES
RAFAEL CEZAR DANAM ‘PRO SE’— PETITIONER

VS.
ARIZONA BOARD OF EDUCATION—RESPONDENT(S)
DIANE DOUGLASS, ET AL

PROOF OF SERVICE
I, RAFAEL CEZAR DANAM. do swear or declare that on this date, Monday the
13th of JULY, 2020 (MMXX) , as required by Supreme Court Rule 29 I have served the enclosed
original MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days,
and/or by electronic transmittal with digital record of transmittal. Final PETITION FOR A WRIT
OF CERTIORARI was submitted on Friday the 11th of SEPTEMBER 2020 (MMXX).
The names and addresses of those served are as follows by electronic transmittal:

Clerk of the Supreme Court of Arizona
Ms. Janet Johnson
SUPREME COURT OF ARIZONA
1501 W. Washington, Suite 402,
Phoenix, AZ 85007-3232

1 of 4

State Courts Building
Arizona Court of Appeals, Division One
Amy M. Wood, Clerk of the Appeals Court,
1501 West Washington Street
Phoenix, AZ 85007

COPY(s) to: by electronic transmittal
APPEALS COURT OF ARIZONA-DIVISION ONE
Panel of Judicial Officers
Hon. Judge Kenton D. Jones
Hon. Judge Diane M. Johnsen
Hon. Judge James B. Morse Jr.
1501 West Washington Street
Phoenix, AZ 85007

OFFICE OF THE GOVERNOR OF ARIZONA
Amy Funari, Executive Assistant
State Capital of Arizona
1700 W Washington Street
Phoenix, AZ 85007

Arizona State Board of Education aka Arizona Board of Education,
Individual Members of the Arizona Board of Education
State of Arizona Capital
1700 West Washington Street, Executive Tower Suite #300,
Phoenix, AZ 85007

2 of 4

MARK BRNOVICH
Office of the Attorney General of the State of Arizona
2005 North Central Avenue
Phoenix, AZ 85004
ARIZONA SENATOR KAREN FANN, SENATE PRESIDENT
State Capital of Arizona
1700 W Washington Street
Phoenix, AZ 85007

ARIZONA SPEAKER OF THE HOUSE RUSSELL BOWERS
State Capital of Arizona
1700 W Washington Street
Phoenix, AZ 85007

Arizona Civil Rights Advisory Board (ACRAB)
Rebekah Browder, Executive Director
2005 N Central Ave
Phoenix, Arizona 85004

Kim S. Anderson, State Bar No. 010584
Assistant Attorney General
State Government Division
Education and Health Section
2005 N. Central Avenue
Phoenix, AZ 85004
Email: kim.anderson@azag.gov
3 of 4

Office of the Assistant Attorney General Counsel
Kara Klima, Linda Hettich, Marie Cobb, Kathleen Hill
2005 N. Central Avenue
Phoenix, AZ 85004
Emails: kara.klima@,azag.gov , Linda.Hettich@azag.gov , Marie.Cobb@azag.gov ,
kathleen.hill@azag.gov

Superintendent and Board of Directors for:
Bullhead City Elementary Unified School District
Heritage Charter School
Laveen Unified School District
ALL Parties of Interest
ALL Parents of former students

I declare under penalty of perjury that the foregoing is true and correctr
of SEPTEMBER, 2020 (MMXX).
f

rated on Friday, 11th
Danam

/s/Rafi tei

RAFAEL CEZAR DANAM, ‘Pro Se’ Petitioner
V (Signal
Notary verification by:

0
(Printed Name)

Notary
(Signature)

